f|Mffm

No.

I? i

y'SlvlJlfS

IN THE SUPREME COURT OF THE UNITED STATES

Eusebio Escobar-De Jesus, Petitioner

vs.

FILED
MAR 2 2 2021

United States of America, Respondent

OFFICE OF THE CLERK
SUPREME COURT. U S.

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES APPEAL COURT FOR THE FIRST CIRCUIT
PETITION FOR WRITE OF CERTIORARI
Eusebio Escobar-De Jesus / Reg No. 03903-069
Federal Correctional Institution
PO Box 420
Fairton, New Jersey 08320
Phone Number: Jeremias 33:3

QUESTIONS PRESENTED
1.

Whether the First Circuit erred in affirming the denial of Petitioner’s Motion

for Compassionate Release under the First Step Act, which the District Court analyzed
under 18 U.S.C. § 3582 (c)(2), while the Fourth and Second Circuits hold that such
Compassionate Release Motions are to be analyzed under 18 U.S.C. § 3582 (c)(1)(A).
2.

Whether the District Court violated the Fifth Amendment’s Due Process

Clause, when it did not quote or analyze the text of the First Step Act or cite any cases that
addressed Motions for Compassionate Release filed pursuant to the First Step Act.

-ii-

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASE
United States v. Escobar De Jesus. 187 F. 3d 148,159 N. 5, 6 (1999).

-in-

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

ii

PARTIES

in

RELATED CASE

in

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

REASON FOR GRATED THE RIGHT OF CERT

3

REASONS FOR GRANTING THE PETITION

4

STATEMENT OF THE FACTS

, 6

EXTRAORDINARY AND COMPELLING REASONS IN SUPPORT
OF THE REDUCTION OF MR. ESCOBAR’SLIFE SENTENCE
TO TIME SERVED.........................................................................

13

FAMILY HISTORY AND PROPOSED RELEASE PLAN

17

CONCLUSION

17

-IV-

INDEX TO APPENDICES
APPENDIX A

Judgment July 23, 2020 and Mandate August 13, 2020

APPENDIX B

Government Opposition in the District Court

APPENDIX C

Government Opposition in the Appeals Court

APPENDIX D

Petitioner a Positive Test Result for COVID-19

APPENDIX E

A Petition for Emergency for Compassionate Release on COVID-19
the Appropriate Request before the Bureau of Prisons on June 1,
2020 before the Judgment of June 23, 2020.

-v-

TABLES OF AUTHORITIES
Page
United States v. Escobar De Jesus.
187 F. 3d 148, 159 N. 5, 6 (1999)

iii, 2

United States v. Wirsina.
943 F. 3d 175, 182-8 N.3 (4th Cir. 2019)

3

United States vs. Juan Ledesma-Rodriauez.
2020 WL 3971517 ......................................

5

United States v. Patnick M. V. laneaw.
2020 WL 4345105, for the Dist. of Rhode Island, August 22, 2020

5

United States v! Zullo. No. 19 cr. 3218
(2nd Cir., Sept. 25, 2020, Lexis 30605 (2020)..........................

5

United States v. Hamilton. 715 F.3d 328, 337 (11th Cir. 2013)

7

United States vs. Berry. 701 F. 3d 374, 377 (11th Cir. 2012)

7

Dillon vs. United States. 560 U.S. § 817, 827 (2010)........

7

United States v. Eric Millan. (No. 91-CR-685, LAP)..........

11, 13

United States v. Candelaria-Silva. 714 F. 3d 651,
656 (1st Cir. 2012) (citing Dillon, 560 U.S. at 827).
Id. Gov. Opp. Pg. 17-19) ....................................

15

Apprendi v. New Jersey. 530 U.S. 466 (2000)

17

Allevne v. United States. 186 L. Ed 2d 314 (2013)

-VI-

17P

TABLES OF STATUTES AND RULES
Page
First Step Act, which the District Court analyzed under
18 U.S.C. § 3582 (c)(2) ............................................

ii, 4, 6, 8, 12, 14

21 U.S.C. 848(a) and (c)

2

18 U.S.C. § 111(a)(1);

2

18 U.S.C. §922(o)(1)

2

21 U.S.C. §841 (a)(1)

2

21 U.S.C. § 1952

2

21 U.S.C. § 848(e)

2

21 U.S.C. § 848(a) and (c)

2

21 U.S.C. § 848(e)(1)(A)

2

21 U.S.C. § 922 (g)(1)

2

21 U.S.C. § 843(b)

2
2,3

Section 963, 841(a)(1), 843(b)
Title 18 United States Code section, 111A, and B, 1114,
922(g)(1), 922(o), 1952 A-3, and B-1, and 2 ................
United States Sentencing Guidelines Section 2D1.5

2
3, 5

21 U.S.C. § 848(e)

3

21 U.S.C. 841(a), 843(b) and 963-was 44

3

18 U.S.C. § 3582(c)(1)(A)

3

18 U.S.C. § 3582(c)(2)

4

28 U.S.C. § 994(o)

4

18 U.S.C. § 3582(c)(1)(B)

4

-VII-

5,6

18 U.S.C. § 3582(c)(1)(A)
18 U.S.C. § 3582(C)(2)

5

18 U.S.C. § 3553(a)

7

18 U.S.C., § 3553(a)(2)

8

18 U.S.C. 3553(c)

8

Fed. R. Crim. P. 32(b)(1)

8

18 U.S.C. § 3582(c)

8

18 U.S.C. § 3582(c)(2)

8

U.S. Sentencing Guidelines

9

21 U.S.C § 848(a) and (b)

10

18 U.S.C. § 3582(c)(1)(A)(i)

11

21 U.S.C. § 848(b)

11
11, 12, 13, 14

18 U.S.C. § 3582(c)(1)(A)
18 U.S.C. § 3553(a)

13

18 U.S.C. § 3553(a)(6).

14

18 U.S.C. § 3582(c)(1)(A)(ii)

14

18 U.S.C. § 3582(c)(2)

15

21 U.S.C. § 848(b)

17

18 U.S.C. § 3582(c)(1)(A)(ii)

17

4205(G).

17

18 U.S.C. § 3582(c)(1)(A)

18

3582(c)(2)

18

-VIII-

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment

below.

OPINIONS BELOW
For cases from federal courts:
The opinion of the United States Court of Appeals appear at Appendix A to the
petition and has been designated for publication but is not yet reported.
The opinion of the United States District Court appears at Appendix B to the petition
and is reported at if not opinion denied, same Appendix B.

JURISDICTION
The date on which the United States Court of Appeals decided my case was July
23,2020. o»Ncf

APPWDZX

A timely petition for rehearing was denied by the United States Court of Appeals on
August 13, 2020 and a copy of the order denying rehearing appears at Appendix A.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1.

The Fifth Amendment of the Constitution.

2.

The Sixth Amendment of the Constitution.

-Page 1 of 18-

STATEMENT OF THE CASE
Following a jury trial in the United States District Court for the District of Puerto Rico,
Petitioner was convicted on one count of engaging a continuing criminal enterprise (CCE),
in violation of 21 U.S.C. 848(a) and (c); two counts of assaulting a Customs Service officer
with a deadly weapon, in violation of 18 U.S.C. § 111(a)(1); one of possessing a machine
gun, in violation of 18 U.S.C. §922(o)(1); one count of aiding and abetting the possession
of 80 kilograms of cocaine with the intent to distribute it, in violation of 21 U.S.C.
§ 841 (a)(1); three counts of aiding and abetting interstate travel with the intent to promote
unlawful activity, in violation of 21 U.S.C. § 1952; one count of causing an international
killing while engaged in a CCE, in violation of 21 U.S.C. § 848(e); two counts of being a
felon in possession of a firearm, in violation of 21 U.S.C. § 922 (g)(1); four count of using
a communications device to facilitate the importation of cocaine, in violation of 21 U.S.C.
§843(b); and o ne count of aiding and abetting an attempt to import 320 kilograms of
cocaine, in violation of 21 U.S.C. §952, 960 and 963. Petitioner was sentenced to life
imprisonment. The Court of Appeals affirmed. United States v. Escobar-De Jesus. 187
F.3d 148, 157 and n.1 (1st Cir. 1999), cert, denied, 528 U.S. 1176 (2000).
On May 14,1993... it should be April 14, defendant Eusebio Escobar-De Jesus was
found guilty as to counts 1, 5, 6, 7, 10, 11, 12,15 through 20, both inclusive, 23, 24 and
33 of the indictment in criminal case 90-130, which charge a series of violations, including
Section 848(a) and (c) of Title 21, Section 848(e)(1)(A), Section 963,841(a)(1), 843(b), all
of Title 21 and Title 18 United States Code section, 111 A, and B, 1114, 922(g)(1), 922(o)
1952 A-3, and B-1, and 2.
Based on the fact that the nature of the overall offense conduct involved a
continuing criminal enterprise, the provisions of the United States Sentencing Guidelines
-Page 2 of 18-

Section 2D1.5 establish that the appropriate base offenses level of the underlying drug
offense. S.H.T.P. 27-28.
The court grouped together all counts of conviction include the murder convictions
under 21 U.S.C. § 848(e) which the court treated together because the total offense level
of group 2 really is non-consequential for the purpose of the sentence. S.H.T.P. 13. Under
the Sentencing Guidelines § 2D1.5, the offense level for Petitioner’s murder conviction was
43 S.H.T.P. 27, 30. Under Guidelines § 2D1.5, the offense level for violation of
Section 848(a) was four plus the offense level for the underlying drug offense-i.e., his
convictions under 21 U.S.C. 841(a), 843(b) and 963-was 44. Because 500 to 1500
kilograms of cocaine were involved the base offense level for violating 21 U.S.C. §841 (a)
843(b) and 963 was 40. S.H.T.P. 28; see Sentencing Guidelines 2D1.5 (1989).
The possession of a dangerous weapon during a drug offense and the use of an
aircraft other than a regularly scheduled commercial flight resulted in an additional four
level increase, resulting in a base offense level of 48 for the Section 848(a) offense treated
together. S.H.T.P. 13, 27, under Guideline 2D1.5.

REASON FOR GRATED THE RIGHT OF CERT.
The Nature of the Split.
Rule 10. Considerations governing review on certiorari - A United States Court of
Appeals has entered a decision in conflict with the decision of another United States Court
of Appeals on the same important matter.
In United States v. Wirsino. 943 F. 3d 175,182-8 N.3 (4th Cir. 2019); hod that (1) the
District Court erred in analyzing defendant’s Motion under 18 U.S.C. § 3582(c)(2) and
should have instead used 18 U.S.C. § 3582(c)(1)(A) and defendant statute-of-conviction
-Page 3 of 18-

theory of eligibility is correct because defendant is eligible if seek relief under the First Step
Act should be remanded to the District Court to consider defendant’s Motion to Impose a
Reduced Sentence. The District Court did not quote on analyze the text of the First Step
Act or cite any cases that had addressed First Step Act Motions. The Court also did not
teach the question of whether, in its discretion, it would grant relief to defendant’s if he was
eligible.
In United States v. Holowav. 956 F. 3d 660,665, N. 8 (2nd Cir. 2020) holding that the
First Step Act Motion, however, is not properly evaluated under 18 U.S.C. § 3582(c)(2).
That provision applies only if the defendant seeks a reduction because he was sentenced
to a term of imprisonment based on a sentencing range that has subsequently been
lowered by the sentencing commission pursuant to 28 U.S.C. § 994(o), i.e, a change to the
sentencing guidelines. But a First Step Act Motion is based on the act’s own explicit
statutory authorization, rather than on any action of the sentencing commission. For this
reason, such a motion falls within the scope of § 3582(c)(1 )(B) which provides that a “court
may modify an imposed term of imprisonment to the reduction compor with USSG
§ 1B1.10 or any other policy statement, and thus the defendant’s eligibility turns only on
the statutory criteria discussed above. Accordingly, Holloway was eligible for a reduction
in his term of imprisonment, and the District Court erred in denying his motion.
In so holding the Second Circuit agree with the other Courts of Appeals to have thus
far addressed this question. Id. Note 8.

REASONS FOR GRANTING THE PETITION
See United States v. Torres. 2020 U.S. Dist. Lexis 95393 for the Southern Dist. of
New York, at PE 31-33 (2020). The court may thus consider the full merits of their request,
-Page 4 of 18-

including their claim that the pandemic provides another reason for a sentence reduction.
United States vs. Juan Ledesma-Rodriouez. 2020 WL 3971517, Southern District
of Iowa, August 22,2020 Compassionate Release using Hollowar Doctrine plus COVID-19
pandemic.
United States v. Patnick M. V. Iqneaw. 2020 WL 4345105, for the Dist. of Rhode
Island, August 22, 2020, using Booker vs. United States, as an extraordinary and
compelling circumstance.
At the outset, a sentencing modification authorized under the First Step Act occurs
under 18 U.S.C. § 3582(c)(1)(A) rather than 18 U.S.C. § 3582(C)(2), The Fifth Circuit
recently observed that a district court should “Plac[e] itself in the time frame of the original
sentencing, altering the Relevant Legal Landscape only by the changes mandated by the
2010 Fair Sentencing Act.” United States v. Heawood. 934 F. 3d 414, 418 (5th Cir. 2019)
(emphasis added). In conflict with the Second and Third Circuits.
United States v. Zullo. No. 19 cr. 3218 (2nd Cir., Sept. 25,2020, Lexis 30605 (2020).
The Second Circuit holdings that USSG § 1B1.13 does not apply to post-First Step
Sentence Reduction Motion. “Application Note 4,” the Second Circuit ruled, “says that [a]
reduction under this policy statement may be granted ‘only’ upon Motion by the Director
of the BOP pursuant to 18 U.S.C. § 3582(c)(1)(A).
If a compassionate release motion is not brought by the BOP Director, Guidelines
§ 1B1-13 does not by its own terms, apply to it. [Same Escobar case], because guideline
§ 1B1.13 is not “applicable” to compassionate release motions brought by defendants.

-Page 5 of 18-

STATEMENT OF THE FACTS
On April 19, 2019 the Petitioner filed a Motion for Compassionate Release in
Criminal Case No. 90-130 (PG) based on 18 U.S.C. § 3582(c)(1)(A), following changes
there to after the enactment of the First Step Act, pub. L. No. 115-391, 135 stat. 5239
(2018) (DE 1306-1307-1310). On August 23, 2019 the District Court ordered the
Government to respond to Escobar’s Motion for Compassionate Release (DE 1308). The
Government filed its response on August 30, 2019. (DE 1309). The District Court entered
and ordered denying Escobar’s motion succinctly citing its basis for denial as the reasons
set forth in the Government’s brief. In opposition, “for the reasons stated at ECF No. 1309,
defendants request is denied” (DE 1313). Thereafter, Escobar filed a notice of appeal, and
the appeal ensured. (DE 1314).
The Government filed brief in Appeal No. 19-2210; its opposition was basis at pages
17, 18, 23, 28, 35 under 18 U.S.C. 3582(c)(2), including the standard of review instead
18 U.S.C. § 3582 (c)(1)(A) was the appropriate vehicle for First Step Act motion. The
appeals Court entered a judgment on July 23 denying his properly exhausted motion to
reduce sentence under the First Step Act of 2018 and 18 U.S.C. § 3582(c)(1)(A). In its only
argument preserved for appeal.
The defendant’s additional “Emergency Motion” for compassionate release on
COVID-19 grounds is denied without prejudice to a procedurally appropriate request before
the Bureau of Prisons or District Court.
On August4,2020 Escobar timely filed petition for rehearing En Banc under CFRAP
35 and 40. Contains (1) a material factual legal matter was overlooked; (2) the case
involves one or more questions of importance. On August 13, 2020 entered the Foral

-Page 6 of 18-

Mandate of the Court stated: “The mandate issued on August 12,2020 is hereby vacated
as if was issued in error.
The government is clearly erroneous when relying in United States v. Hamilton. 715
F.3d 328, 337 (11th Cir. 2013). That contention strikes as clearly erroneous because that
case dealt with career offender and amendment to the guidelines. The Eleventh Circuit
rejected the government contention in United States vs. Berry. 701 F. 3d 374,377 (11th Cir.
2012). Additionally, Escobar submits the government’s citing of Dillon vs. United States.
560 U.S. § 817, 827 (2010), and other cases from the Second and Eleventh Circuits,
concerning retroactivity of a guideline amendment, further reveals its lack of
comprehension of the intended application of this new legislation as the relief provided in
Section 602(b)(1) of this new First Step Act, which was enacted to “increase the use and
transparency of the compassionate release” and has yet to be incorporated into the United
States Sentencing Guidelines and thus is not available through a guideline amendment.
Accordingly, Dillon and other case is cited by the government and likely relied on by
the District Court as instructive are in fact inapposite.
The plain text of subsection 603(b)(1) gives the court authority to conduct a full
resentencing (unlike Section 3582(c)(2) motions), in the defendant’s presence. First,
Section 572.40 give the court discretion to “impose” a reduced sentence at any length
consistent with Section 841(b)(1)(A) and (b)(1((B), without limitations on what the court
may consider. See Section 572.40.
Second, Section 572.40 gives the court jurisdiction to “impose” a reduced sentence,
(emphasis added). Congress’ choice of the verb “impose”, instead of “modify” or “reduce”
is significant. Federal sentencing statutes use the verb “impose” to mean “sentence” in light
of all relevant factors. See e.g. 18 U.S.C. § 3553(a) (“The court shall impose a sentence
-Page 7 of 18-

sufficient, but not greater than necessary, to comply with the purposes seth forth in
paragraph (2) of t his section.”); Section 3553(a)(2) (“directing courts to consider “the need
for the sentence imposed in light of the purposes of sentencing”); Section 3553(c)
(“Statement of reason for imposing a sentence. The court, at the time of sentencing, shall
state in open court the reasons for its imposition of the particular sentence”) because of
“identical words... are intended to have the same meaning, the Act’s use of the verb
“impose” directs a resentencing. See also Fed. R. Crim. P. 32(b)(1) using verb “imposing”)
all unlike a motion filed under Section 3582(c) using the words “modification of impos(ed)
term of imprisonment.” See United States v. Berrv. 701 3d 374, 377 (11th Cir. 2012),
rejecting the defendant’s argument that he was eligible for a Section 3582 reduction under
(FSA) determining that “the (FSA) is not a Guidelines amendment by the Sentencing
Commission, but rather a statutory change by Congress, and thus it does not serve as a
basis for a Section 3582(c)(2) reduction in the Defendant’s case. Id. Finally, Section 572.40
authorizes courts to conduct a resentencing.
Section 603 of the First Step Act amended 18 U.S.C. 3582(c)(1)(A)(i) including the
following “default clause":
“...or upon motion of the defendant after the defendant has
fully exhausted all administrative rights to appeal a failure of
the Bureau of Prisons to bring a motion on the defendant’s
behalf, or the lapse of 30 days from the receipt of such a
request by the warden of the defendant’s facility, whichever is
earlier.”
Mr. Escobar handed his request to prison staff, to be delivered to the warden of this
facility, on June 1, 2020. Therefore, as of October 2020, with no response received from
the warden, the criteria above has been satisfied and this Court has proper jurisdiction to
hear this request.

-Page 8 of 18-

See, Houston v. Lack. 487 U.S. 266 (1988) (establishing “prison mailbox rule” for
pro se prisoner; once a document is delivered to prison staff, that document is deemed
filed).
Having met all of the criteria for a request for relief under this new legislation, and
satisfying the “exhaustion of remedies” requirement, Mr. Escobar now submits his request
to the Supreme Court.
In addition to the information contained in the petition filed with the warden of his
facility, which is included here, Mr. Escobar would note that in subsection (a)(5), clauses
(i) and (ii) of Section 603,the age and term of imprisonment completed has been modified
from 65 to 60 years of age, and from 75% to 2/3 of the term imposed.
Under the (mandatory) U.S. Sentencing Guidelines in effect at the time of
Mr. Escobar’s sentencing, a term of Life was quantified to 470 months, which is the
equivalent of 39.1 years.
Without the addition of any “good time credits”, Mr. Escobar has now served a total
of 30.6 years, which is 4.6 years over the 26.1, or 2/3 of his sentence.
Based on these facts, and the criteria in the First Step Act as set forth herein,
Mr. Escobar asks this Honorable Court to grant his Request for Compassionate Release
and prays that it will be granted.
Argument One.
Comes now the petitioner, Eusebio Escobar-De Jesus, pro se comes before this
Honorable Court, with the instructions of the Appeals Court judgment: The defendant’s
“Emergency Motion”, for compassionate release on COVID-19 grounds is denied without
prejudice to a procedurally appropriate request before the Bureau of Prisons or District
Court. See Appendix A and D. The petitioner has been infected with the virus COVID-19
-Page 9 of 18-

and presumed to contagious and the life of the petitioner is in risk to die. See United States
v. Torres. 2020 U.S. Dist Lexis 95393 at pg 31-33, for the Souther Dist. of New York
(2020). Holding that, the District Court may consider the full merits of their request,
including their claim that the pandemic provides another reason for a sentence reduction.
And this case, the state of Fairton, New Jersey, where the Torres Brothers, petitioner
Escobar has been housed and moves this Supreme Court, in light of Torres case it’s the
same statute 21 U.S.C § 848(a) and (b) uncharge and the same institution.
COVID-19 Pandemic Presents Extraordinary and Compelling Reason.
The ongoing COVID-19 pandemic provides reason for Escobar’s release. The
Centers for Disease Control and Prevention (CDC) has recognized older adults and people
of any age who have serious underlying medical conditions might be and high risk for
severe illness from COVID-19. Among those considered by the CDC to be high risk are
individuals older than sixty-five and those with underlying health conditions, including heart
conditions and diabetes.
Here, Escobar is 71 years old and currently suffers from prostate cancer, high blood
pressure and glaucoma, three conditions that place him at a greater risk of severe illness
from COVID-19. His age and health weight in favor of a sentence reduction given the
ongoing pandemic.
Recently, the U.S. District Court for the Southern District of New York recognized
these same factors in reducing Jorge and Victor Torres’ sentences. The Torres brothers
were serving their 33rd year of life sentences. See U.S. v. Torres. 2020 U.S. Dist. Lexis
9539 (S.D.N.Y., June 1,2020). Escobar has also served more that thirty years of his life
sentence. Like Escobar, the Torres brothers were also housed at FCI Farton on similar

-Page 10 of 18-

charge with similar sentences. Escobar requests this Court to follow the Torres Court’s
reasoning to avoid under disparity among similar situated inmates.
The Torres Court cites several cases to support that given these circumstances
there can be no question that the COVID-19 pandemic presents an extraordinary and
unprecedented thread to incarcerated individuals. Id. At Lexis 31. That Court also
recognized that there is a good argument that realistically the best, perhaps the only way
to mitigate the damages and reduce the death toll is to decrease the prison population by
releasing as many people as possible. Id. At Lexis 33.
In sum, Escobar presents that the totality of his circumstances provide
“extraordinary and compelling reasons" for a sentence reduction. See also of the recent
Second Circuit case in United States v. Eric Millan. (No. 91-CR-685, LAP), for the
Sourthern District of New York, April 6,2020) applicable to the petitioner’s argument under
18 U.S.C. § 3582(c)(1)(A)(i) and 21 U.S.C. § 848(b). The (same).
Petitioner’s statement of jurisdiction, facts and statement of the case are placed
before this Court in petitioner’s original brief and appellant brief, and therefore, will not be
again relitigated herein.
This Court has the authority to release the petitioner in response to the worldwide,
COVID-19 pandemic, to time served pursuant to 18 U.S.C. § 3582(c)(1)(A). That section
provides that District Court can modify a “final term of imprisonment” if “extraordinary and
compelling reasons warrant such a reduction.” Three points bear nothing with regards to
the operation of 18 U.S.C. § 3582(c)(1)(A). First in passing the statute, Congress
empowered District Courts, not the U.S. Parole Commission, as previously, to decide in
individual cases if “there is a jurisdiction for reducing a term of imprisonment.” Se S. Rep.

-Page 11 of 18-

No. 98-225, at 56 (1983). Put differently, Congress envisioned 18 U.S.C. § 3582(c)(1)(A)
acting as a “safety valve [ ] for [the] modification of sentences and intended for District
Court to be able to reduce sentences when justified by the various factors and reasons that
the U.S. Parole Commission previously had considered in making parole determinations.
Second, although the power to reduce sentences provided for by 18 U.S.C.
§ 3582(c)(1)(A) has most often been used to reduce the prison terms of elderly and/or
terminally ill defendants, nothing in the statutory language or legislative history of 18 U.S.C.
§ 3582(c) indicates that Congress intended to limit its application to elderly defendants or
defendants with compelling medical circumstances. Rather, if a judge finds the existence
of any “extraordinary and compelling reasons” warranting a sentence reduction. Those
reasons could, pursuant to 18 U.S.C. § 3582(c)(1 )(A), form the legal basis for the reduction
“of an unusually long sentence." Id. at 55-56.
The [ Sentence Judiciary] Committee believes that there may be unusual cases [like
Millan, Escobar’s ] in which an eventual reduction in the length of a term of imprisonment
is justified by changed circumstances. These would include cases of sever illness, cases
in which other extraordinary and compelling circumstances justify a reduction of an
unusually long sentence, and some cases in which the sentencing guidelines for the
offense of which the defendant was convicted has been later amended to provide a shorter
term of imprisonment. Id. At 55-56 (1983).
Third, in late 2018, Congress passed the First Step Act, which, among other things
fundamentally transformed the process by which 18 U.S.C. § 3582(c)(1)(A) sentence
reduction motions are adjudicated. As a defendant first files a request for a sentence
reduction motion with the warden of the facility in which s/he is being held that is rejected
of the lapse of 30 days “from the receipt of such a request by the warden of the
-Page 12 of 18-

defendant’s facility”, whichever happens first. See, United States v. Millan. Case No. 91CR-685(LAP), Southern District of New York, April 6,2020 (“Among other things [ the First
Step Act] add[s] a provision allowing courts to consider motion by defendants for
compassionate release without a motion by the BOP Director so long as the defendant has
asked the Director to bring such a motion the Director fails or refuses.”).
Thus, once a defendant files an 18 U.S.C. § 3582(c)(1)(A) sentence reduction
motion after the occurrence of either of the two foregoing events, a district court may
reduce that defendant’s sentence to time served (or any other prison term short of the
initial sentence) if it finds that: (1) “extraordinary and compelling reasons” exist for a
sentence reduction after considering the 18 U.S.C. § 3553(a) factors; and (2) (“thus courts
may, on motions by defendants, consider whether a sentence reduction is warranted for
extraordinary and compelling reasons other than those specifically identified in the
application notes to the old policy statement”), and courts have utilized that power. See,
United States v. Eric Millan. “supra”, is instructive with regards to court’s newfound
authority to reduce sentence based on “extraordinary and compelling reasons.”

EXTRAORDINARY AND COMPELLING REASONS
IN SUPPORT OF THE REDUCTION OF MR. ESCOBAR’S
LIFE SENTENCE TO TIME SERVED
To date, Mr. Escobar has served more than thirty years of the life sentence imposed
by Judge Perez-Gimenez, of in legal sentence in 21 U.S.C. § 848(b), instead of 21 U.S.C.
§ 848(a), which carried a twenty to Life; Mr. Escobar has done everything in his power to
rehabilitate himself, as demonstrated the most important accomplishment [to repent and
conversion to being a Christian for the past twenty-one years]; and meritorious prison
-Page 13 of 18-

records, classified by the BOP to be in medium custody. Among other things, Mr. Escobar
successfully completed dozens of BOP rehabilitative programs, including drug program.
He also worked hard in the Unicor-Federal Prison Industries Factory. The list of programs
is long. See case manager recommendation and the psychology services department by
Kennedy, B., PSYD, stating: “He has reported approximately twenty years, into day is
twenty-five years of sobriety and his disciplinary record largely supports his claim.1 Id. At
pg. 33 in the original motion in the District Court.
Mr. Escobar, extraordinary rehabilitation together with his petition in response to the
worldwide COVID-19 pandemic, all constitute extraordinary and compelling reasons
justifying a reduction in and compelling reasons justifying a reduction in sentence.
Accordingly, for all of the foregoing reasons, pursuant to 18 U.S.C. § 3582(c)(1)(A),
the motion should be granted.
Argument Two.
The Government on appeal brief at pages 18-19 states: A. Escobar does not qualify
for a sentencing reduction under 18 U.S.C. § (c)(A)(ii).
As a matter of law, Escobar does not qualify for a sentencing reduction under
Section 3582(c)(1)(A)(ii) because he fails to meet the requisite statutory thresholds.
Escobar is less than seventy years of age and has not served at lease thirty years in prison
(DE 1307-5). There is nothing on the record indicating the director of BOP has made a
safety determination about Escobar. (DE 1306, 1307, 1310). Thus, Escobar does not
qualify for a sentencing reduction under this prior First Step Act subsection Id. pg 19.
1See, United States v. Torres. U.S. Dist. Lexis 95393, for the Southern District of New
York, June 1, 2020, No. 87-CR-593 (SHS). The Court may, thus, consider the full merits of their
request, including their claim that the Pandemic provides another reason for a sentence
reduction, its instructive of the Petitioner’s case. Torres, case in the State of New Jersey, where
the same place the Petitioner is being housed. 18 U.S.C. § 3553(a)(6).
-Page 14 of 18-

The court may reduce the term of imprisonment after considering the factors set
forth in Section 3553(a) to the extent that they are applicable, if the court finds
“(i) extraordinary and compelling reasons warrant such a reduction” or (ii) if the defendant
is seventy years in prison for a sentence imposed under Section 3559(c) for the offense(s)
for which the defendant is currently imprisoned, and the director of the Bureau of Prisons
makes a determination that the defendant of the Bureau of Prisons makes a determination
that the defendant is not a danger to the safety of others. 18 U.S.C. § 3582(c)(2).
If the District Court finds one of those two elements are not (namely, that there are
either extraordinary and compelling reasons in (i), or that the defendant has met the age
and sentence threshold of (ii) the court may reduce the term of imprisonment only “if such
a reduction is consistent with applicable policy statements issued by the sentencing
Commission.” 18 U.S.C. § (c)(1)(A); See Dillon v. United States. 560 U.S.: 817, 821
(2010). In determining whether or not to reduce a sentence pursuant to § 3582(c)(2), the
District Court conducts a two-par inquiry. United States v. Candelaria-Silva. 714 F. 3d 651,
656 (1st Cir. 2012) (citing Dillon, 560 U.S. at 827). Id. Gov. Opp. Pg. 17-19); Id. quoting the
Gov.).
Petitioner renew his request for reduction of sentence in this argument for the
reasons as following:
(1) The petitioner’s date of birth is September 13, 1949,. Now he has more than
seventy-one years of life; (2) petitioner has served more than thirty years plus good time
for a total of thirty-five years; (3) the records of the BOP has made an evaluation and
classification from maximum on rehabilitation programs and good conduct. Furthermore,
the psychology department regarding a review of Escobar has not presented any mental
health difficulty during two separate terms of incarceration within the Bureau of Prisons
-Page 15 of 18-

beginning in 1986, and psychology department stated that: “he has reported approximately
twenty years of sobriety and his disciplinary record largely (Dr. Kennedy, B. Psyd.)
Supports his claim. See, (DE 1306, p. 13). Also, accordingly, the BOP, Warden
(Government) waived and forfeited any entitlement to respond a safety determination
about Escobar, because that concern not exist. See, Section 603(b)(1)a - Default Clause.
He has taken every available class and program (See exhibits Inmate Education
Data Transcript) in an effort to expand his knowledge and strengthen his resolve in pursuit
of the peace of mind that seems so exclusive in this environment. In the process he has
been a mentor to many younger inmates. He has helped many of them change their self­
destructive lifestyles, improve their mindset and steered them down a more productive path
and attempted to prepare them for the day of their release.
As for his own personal conduct in prison, he has never committed a violent act
against another, or had any involvement in such an act. In fact, he now has twenty-one
years of “incident free” conduct, an “accomplishment” in this environment to which few
inmates can claim.
In sum, when considering that he now has been imprisoned (for more than thirty
years) more than a decade beyond the maximum term he would face if sentenced today
in the same court for the very same offenses, and that his sentencing judge would have
needed a crystal ball to have foreseen these changes in the judicial process, Escobar
would submit to the warden that these facts are indeed “particularly extraordinary and
compelling” and now warrant relief in his case. See Appendix E.
The Government open this argument in appeal and the Appeals Court rejecting
because the only argument preserved for appeal, the motion requested compassionate
release because the defendant time served purportedly exceeds any term that could be
-Page 16 of 18-

imposed if he were being sentenced today in light of Apprendiv. New Jersey. 530 U.S. 466
(2000), two other Apprendi-themed decisions; and certain sentencing changes wrought
brought by the First Step Act.
The petitioner committed an error to cite Apprendi instead of citing Allevne v. United
States. 186 L. Ed 2d 314 (2013); was the appropriate vehicle for a First Step Act Motion,
because Apprendi deal with the minimum mandatory sentence instead Alleyne deals with
the maximum mandatory sentence, like Escobar, 21 U.S.C. § 848(b). The finality of this
agreement two was never was preserved in the District Court should it address this
argument appropriate request before the Bureau of Prisons. See Appendix E.

FAMILY HISTORY AND PROPOSED RELEASE PLAN
Over the past thirty plus years, and add five years good time for a total of thirty-five
year of his imprisonment, Escobar has suffered the lose of his dear mother. Among his
supporters are children, grandchildren, cousins and multiple Christian churches and to
testify, if this Honorable Court conducting a hearing in this case. See Exhibits and the
package that case manager Velazq 1 uez has put together for his purpose before this court
in the prior petition. And because of the lapse of thirty years from the receipt of the request
by warden, this request should be granted under 18 U.S.C. § 3582(c)(1 )(A)(ii) and 4205(G).
The sentencing court may reduce the sentence in particularly extraordinary and
compelling circumstances, which could not reasonably have been foreseen by the court
at the time of his sentencing in this case.

-Page 17 of 18-

CONCLUSION
Mr. Escobar extraordinary petition, together with his petition to have been infected
with the virus of COVID-19 pandemic, all constituted extraordinary and compelling reasons
justifying a reduction of sentence. Accordingly, for all of the foregoing reasons, pursuant
to 18 U.S.C. § 3582(c)(1)(A) instead 3582(c)(2), Eusebio Escobar-De Jesus motion should
be granted.
Respectfully submitted,

date

-Page 18 of 18-

